Mueser Rutledge Consulting Engineers
   Subcontractor under Contract
       Number C-076-00870

       Memorandum Report
             Mueser Rutledge Consulting Engineers
                Subcontractor under Contract
                    Number C-076-00870




                       Report Addressed To:

                        Gary E. Eckenrode
                  Senior Dit'ector - Proc\ll'elUent
                  30th Street and Mal'ket Streets
                      Philadelphia. PA 19104




                        Memo.'andum Issued By:

       NATIONAL RAILROAD PASSENGER CORPORATION
          OFFICE OF INSPECTOR GENERAL - AUDITS
                     10 G STREET, N.E.
                  WASHINGTON, DC 20002

                 DATE OF REPORT: August 26, 2009
                   REPORT NUMBER: 307-2007




This document shall become available to the public   011   September 28,2009
                           Mueser Rutledge Consulting Engineers
                         Subcontractor Under Contract C-076-00870
                                         Repol'l # 307-2007




                                     BACKGROUND

The Office of Inspector General audited Mueser Rutledge's (MR) invoices for work on the
Thames River project. The Thames River project is the replacement of the moveable span on the
Thames River Bridge in New London, Connecticut. The work is being performed under contract
C-069-24978 between Amtrak and Cianbro Construction Company. The total cost of the project
is $77,171 ,771. Amtrak contracted with URS incorporated (URS) (formally Washington Group
International), a construction management linn, to oversee the project. URS retained the services
of MR as a subcontractor to develop a stabili zation plan for two of the existing bridge piers that
moved during construction. MR's scope of work included developing and supervising a
specialized grouting program to stabili ze the two bridge piers. MR submitted invoices totaling
$1 ,446,712, as of May 29, 2009, for engineering services performed on the project. URS'
agreement with MR (agreement No. 27832-SC-05, dated July I , 2006) is for a total cost of
$1,536,595, with a period of performance not to exceed thirty six (36) months tl'om the effective
date of the latest modilication which was December 15, 2007.


                       Objective, Scope, and Methodology                                          ,

The audit objective was to determine that costs submitted by MR were in accordance with
contractual terms and supported by detailed books and records. Additionally, we reviewed the
qualifications of engineers assigned to the project to determine that their educational levels and
experience were in accordance with contractual requirements.

The scope of our audit encompassed reviewing MR ' s total billed costs of $1,446,712 associated
with invoice No. 10469-30A, dated May 29, 2009, which represents incurred costs from July
2006 through May 2009. We reviewed the submitted costs to determine if the costs were
supported by detailed books and records and in compliance with the terms and conditions of the
contract between MR and URS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit. We have not reviewed MR' s internal
controls. The scope of our examination included such tests of compliance with contractual terms
that we believe provide a reasonable basis for our opinion.




                                           Page I of3
                           Muesel' Rutledge Consulting Engineers
                         Subcontractor Under Contract C-076-00870
                                         Report # 307-2007


,



                                 RESULTS OF AUDIT
                                                                                                  ,




We found that the costs presented in MR's invoice were fully supported by detailed payroll
records, time sheets, and travel vouchers and were in accordance with contractual terms. Our
conclusion was substantiated by:

    »   Verifying labor charges to MR's accounting records and tracing a sample of charges
        to supporting time records.

    »   Tracing travel costs to travel vouchers submitted by personnel assigned to the project.
        Additionally, we preformed an analysis of MR's contract with URS to assure the
        travel costs were in accordance with contractual terms and conditions.

    »   Verifying that subcontractor costs were supported by invoices and that MR had
        applied the contractual overhead rates in accordance with contract terms.

    »   Reviewing engineering billing rates utilized in the May 29, 2009 invoice to determine
        that all rates were in accordance with contractual terms.

    »   Reviewing resumes for all engineering personnel assigned to the project to determine
        that persOlmel had sufficient qualifications as set forth in the contract.


                                RECOMMENDA TIONS

There were no findings consequently there are no recommendations.

This concludes our report. I would like to express my appreciation for the cooperation provided
to the audit team during the audit.

Since there are no adverse findings, a response to this report is not necessary at this time.
However, Amtrak OIG is required to make this report available to the public under the Inspector
General Reform Act of 2008, 110 P.L. 409; 122 Stat. 4302. To the extent that you believe this
report contains confidential or propriety information that should be withheld from public release,
you must take the following actions no later than September 10,2009: 1) highlight any words or
phrases recommended for redaction; and 2) provide a written detailed justification for each of
your recommendations. If you do not provide written recommendations by September 28, 2009,
the report will be made publicly available without redaction on the specified date of the report.




                                           Page 2 of3
                          Mueser Rutledge Consulting Engineers
                        Subcontractor Undcl· Contract C-076-00870
                                          Rcpol·. # 307-2007


Audit Staff:

Roy Wiegand, Senior Director, Audits
David Burrell, Principal Auditor-Audits



Gary E. Glowacki
Deputy Inspector General- Audits


Distribution:
P. Finch
D. Burrell
R. Wiegand
File




                                            Page 3 on
